Supreme Court, U.S.
FILED

WAIVER

APR 1 7 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1160

Robert J. Murphy

v.

Office of Disciplinary Counsel
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

.avia

Signature
Date-

April 10, 2020

(Type or print) Name

Michael D. Gottsch
0 Mr.

Firm

Office of Disciplinary Counsel of the Supreme Court of PA

Address

1601 Market St., Suite 3320

City & State
Phone

❑ Ms. 0 Mrs. 0 Miss

Philadelphia, PA

215-560-6296

Zip
Email

19103

Michael.Gottsch@pacourts.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Robert J. Murphy

RECEIVED
APR 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

